Res. 1
[Docket Nos. 14, 49 & 51]
UNITED STATES DISTRICT
COURT DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
SARA ANN EDMONDSON,
Civil No. 13-7704 (RMB/JS)

Plaintiff,
v.

ORDER

LILLISTON FORD et al.,
Defendants.
This matter comes before the Court upon the filing
of several motions by Plaintiff Sara Ann Edmondson,
a Motion to Compel Arbitration [Docket No. 14], Plaintiff ’s Motion to Recuse [Docket No. 49], and Motion to
Disqualify [Docket No. 51]; and the Court having reviewed the parties’ submissions; and the Court having
held a hearing; and for the reasons stated on the record
this date;
IT IS on this, the 22nd day of June 2015, hereby
ORDERED that Plaintiff ’s Motion to Recuse
[Doc. No. 49] and Motion to Disqualify [Docket No. 51]
are DENIED; and it is further
ORDERED that Plaintiff ’s Motion to Compel
[Doc. No. 14] is GRANTED; and it is further

Res. 2
ORDERED that the above-captioned matter shall
be STAYED pending arbitration.
s/ Renée Marie Bumb
RENÉE MARIE BUMB
UNITED STATES
DISTRICT JUDGE

